No. ___________
IN THE

Supreme Court of the United States
ALFRED MONTGOMERY, III,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
NOW COMES Petitioner Alfred Montgomery, through undersigned counsel,
and moves this Honorable Court for leave to proceed in forma pauperis and to file the
attached Petition for Writ of Certiorari without prepayment of costs, pursuant to
Supreme Court Rule 39 and 18 U.S.C. ยง 3006A(d)(7). A United States Magistrate
Judge for the Eastern District of Louisiana declared Mr. Montgomery indigent and
appointed the Federal Public Defender to represent him on appeal. See United States
v. Montgomery, No. 2:16-CR-0225, Dkt. 10, (E.D. La. January 26, 2017) (order)
(attached hereto).
WHEREFORE, Petitioner respectfully moves this Honorable Court for leave
to proceed in forma pauperis and to file the attached Petition for Writ of Certiorari
without prepayment of costs.

Respectfully submitted this 8th day of February, 2021.
/s/Celia C. Rhoads
CELIA C. RHOADS
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
celia_rhoads@fd.org

2

Case 2:16-cr-00225-SSV-KWR Document 10 Filed 01/26/17 Page 1 of 1
UNITED STATES DISTRICT COURT

EASTERN DISTRICT OF LOUISIANA
CR.NO. 16-225 R

UNITED STATES OF AMERICA

ORDER
X

VERSUS

Appointing Counsel
Substituting Counsel For:

ALFRED MONTGOMERY, III
Ratifying Prior Service

Extending Appointment For Appeal

CHARGE:

18 USC 922(g)(1)...: VIOLATIONS OF THE FEDERAL GUN CONTROL ACT

AND CONTROLLED SUBSTANCES ACT
X

FELONY

MISDEMEANOR

X The defendant, having satisfiedthis Court that he/she: (1) is financially unable to employ counsel, and
(2) does not wish to waive counsel, and because the interests of justice so require, the Federal Public
Defender named below is hereby appointed to represent this defendant in the above designated case until
relieved by order of the District Court:

CLAUDE KELLY, FEDERAL PUBLIC DEFEINDER, HALE BOGGS FEDERAL BLDG.,
RM 318, 500 CAMP ST, NEW ORLEANS, LA 70130 PHONE: (504)589-7930
Federal Public Defender is appointed for the limited purpose of:

It appearing to the Court that although the defendant is financially unable to employ counsel, he/she is
totally indigent.
IT IS FURTHER ORDERED that the defendant pay to the Clerk, U. S. District Court for services of

counsel, the total amount of $
or by

to be paid within 10 working days
,

IT IS FURTHER ORDERED that the defendant is to pay to the Clerk, U.S. District Court, for services

of counsel, $

per month. This amount is to be paid, beginning on

,20

until further orders of the Court.

Dated at New Orleans, Louisiana, on

JANUARY 26, 2017

UNITED STATES MAGISTRATE JUDGE

Copy to Financial Unit Clerk {Only ifdefendant is ordered to pay)

,

